  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


                DHS Must Address
            Internet Protocol Version 6
                    Challenges




OIG-08-61                                 May 2008
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                      May 28, 2008


MEMORANDUM FOR:               Elaine Duke
                              Deputy Under Secretary for Management


FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                      DHS Must Address Internet Protocol Version 6 Challenges,
                              OIG-08-61

We evaluated the Department of Homeland Security’s (DHS’) transition to Internet Protocol
Version 6 (IPv6). The Office of Management and Budget (OMB) requires federal agencies
to demonstrate by June 2008, the capability to pass IPv6 traffic and support IPv6 addresses
from the (1) Internet to their local area network; (2) their local area network to the Internet;
and (3) their local area network to other local area networks. Our objective was to determine
whether DHS is effectively managing its implementation of IPv6.

Although DHS has begun the early stages of implementing OMB’s IPv6 transition
requirements, it is unlikely that the department will be positioned to take timely advantage of
the enhanced capabilities of IPv6 as IPv6-capable products and services become available.
Specifically, we recommend that DHS (1) complete an inventory of IPv6 applications and
devices; (2) finalize its IPv6 transition strategy; (3) provide guidance to its components and
offices to plan for their IPv6 transition; and (4) better coordinate with the OneNet Steward.

The five recommendations herein have been developed to the best knowledge available to
our office, and have been discussed in draft with those responsible for implementation. In
response to our draft report, DHS concurred with our recommendations. DHS’ response is
summarized and evaluated in the body of this report and included, in its entirety, as
Appendix A.

Please advise our office within 90 days of the date of this memorandum of the progress in
implementing the recommendations. Your response, or action plan, should discuss the
relevant actions taken or planned, parties responsible, key milestones, and other supporting
information that demonstrates your progress.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation



             DHS Must Address Internet Protocol Version 6 Challenges
responsibility over the DHS. In addition, we will post a copy of the report on our website for
public dissemination.

Should you have any questions, please call me, or your staff may contact Frank Deffer,
Assistant Inspector General for IT Audits, at (202) 254-4100.

Background
Internet Protocol (IP) includes the language and rules that computers use to transmit
information (such as email and other data, voice communications, and video) over the
Intranet and Internet. Devices that directly connect to the Internet need a unique IP address
to identify where information originates and its destination. The existing protocol supporting
the Internet today–Internet Protocol Version 4 (IPv4)–supports 4.3 billion IP addresses,
limiting the number of devices that can be given a unique IP address to connect to the
Internet. This cap has constrained the growth of the Internet worldwide and has limited the
number of computers and other devices that can be connected to one another over the
Internet. In addition, there are many security considerations when introducing emerging
technology into a network. The United States Computer Emergency Response Team (US-
CERT) warned in April 2005 that the unmanaged implementation of IPv6 increases security
risks to agencies’ networks.

On August 2, 2005, OMB issued Memorandum 05-22 (M-05-22), Transition Planning for
Internet Protocol Version 6 (IPv6), establishing the goal of transitioning federal agencies’
network backbones to IPv6. The “backbone” includes an agencies’ wide area network
(WAN) core up to its local area network point of demarcation. OMB requires that an
agency’s network backbone transmit both IPv4 and IPv6 traffic and that agencies perform
testing to verify its capability to pass both protocols simultaneously. To aid in transition
planning, OMB M-05-22 identified several key interim milestones and the following
requirements:

   -   By November 15, 2005:
       • Identify an IPv6 agency lead;
       • Complete inventory of routers, switches, and hardware firewalls in network
          backbone.

   -   By February 28, 2006:
       • Develop a network backbone transition plan for IPv6;
       • Submit to OMB an IPv6 progress report.

   -   By June 30, 2006:
       • Complete an inventory of applications and peripherals with dependencies on the
          network backbone;
       • Complete an IPv6 transition impact analysis.

In July 2005, DHS assigned Customs and Border Protection (CBP) as the network steward to
maintain and operate DHS’ unclassified WAN (DHS’ network backbone), referred to as


             DHS Must Address Internet Protocol Version 6 Challenges

                                             2
DHS OneNet. DHS has committed to consolidating its network infrastructure to OneNet to
improve network services between its components. DHS’ goal is to ensure that OneNet will
be IPv6 capable by June 30, 2008.

Additional Preparation Needed For IPv6 Transition
In February 2004, DHS began its efforts to transition to IPv6. The Chief Information Officer
(CIO) established the requirement that all new information technology acquisitions be IPv6
compliant. In July 2005, the CIO established an IPv6 program office to lead the department-
wide transition effort. In May 2006, DHS conducted an inventory of Cisco routers and
switches that are IPv6 capable. However, this inventory did not include any hardware
firewalls or non-Cisco network devices. In August 2006, CBP, as the steward for DHS’
network backbone, reserved a block of IPv6 addresses to satisfy DHS’ anticipated growth
over the next 10 years based on a projection by DHS OneNet’s administrator. Finally, in
May 2007, DHS developed cost estimates to implement IPv6 on DHS OneNet.

Despite these efforts, DHS faces additional challenges in transitioning to IPv6. DHS should
be further along in implementing its transition effort and completing the OMB interim
milestones. DHS must ensure that several key activities are completed before it can fully
transition to IPv6 functionality. Specifically, the department needs to (1) complete a
comprehensive inventory of all IPv6 applications and devices, including hardware firewalls;
(2) finalize its IPv6 transition strategy; (3) engage its components on IPv6 transition planning
and activities; and (4) better coordinate with CBP officials on DHS’ IPv6 transition effort.

A Complete Inventory of IPv6 Applications and Devices Is Essential

DHS has not completed an inventory of routers, switches, and firewalls for its OneNet.
Further, DHS has not conducted an inventory of existing applications and other IPv6 devices.
Combined, such an inventory would provide DHS with the ability to determine the controls
and resources needed to mitigate the risks identified with the transition and assist the
department in developing a more accurate transition cost estimate.

In May 2006, DHS conducted a scan to identify its IPv6-capable network devices. DHS used
an automated network discovery tool (Cisco Network Collector) at six major components to
identify Cisco devices that support IPv6. The components included in this assessment were
CBP, the Federal Emergency Management Agency, Federal Law Enforcement Training
Center, Immigration and Customs Enforcement, Transportation Security Administration, and
United States Coast Guard. This inventory did not include any hardware firewalls or non-
Cisco network devices. In addition, the inventory did not include all DHS components and
offices. The results of this discovery were submitted to OMB in February 2007 as DHS’
initial IPv6 inventory.

OMB required agencies to complete their initial inventory (IPv6 routers, switches, and
firewalls) by November 15, 2005, and a second inventory (IPv6 applications and peripheral
devices) by June 30, 2006. Without a comprehensive inventory, DHS does not have the most



             DHS Must Address Internet Protocol Version 6 Challenges

                                             3
complete and accurate information available to assess the risks associated with its IPv6
transition.

IPv6 Transition Strategy Must Be Finalized

In January 2007, DHS drafted its initial transition plan that assigned IPv6 roles and
responsibilities, established interim milestones to meet OMB’s June 2008 deadline, and
established working groups to coordinate technical and implementation issues. However, the
plan has not been updated or finalized. For example, the plan does not include a timeline for
when the department will complete its transition to IPv6 on its network backbone; indicate
when the department will deploy IPv6 functionality to its components; identify the transition
method and testing strategy to ensure interoperability between IPv6 and IPv4; or incorporate
IPv6 training requirements for key personnel. According to program officials, DHS is now
in the process of finalizing its transition plan.

A transition strategy is the first step to ensure that migration to IPv6 is done methodically and
that network security is not compromised. Before DHS can begin to deploy IPv6, the
department must finalize its IPv6 transition strategy. Completing key planning activities and
identifying the methods of transition early can mitigate risks and assist DHS in a successful
transition to IPv6. Further, lacking a transition strategy, DHS may incur additional expenses
with costly upgrades and compromise network security.

Guidance Is Needed for Components’ Transition to IPv6

DHS has not provided any guidance to its components and offices to assist them in planning
for their transition. Further, DHS has not developed any IPv6-related security policies or
established standard configurations for IPv6 devices. Also, DHS has not established a
process to oversee the component’s progress in migrating to IPv6. For example, DHS’ draft
transition plan required components to submit (1) an inventory of their network devices and
applications to the program office by October 2007, and (2) their respective transition plans
by December 2007. However, the department has not enforced the requirements outlined in
its transition plan. While several components have begun planning their own IPv6 activities,
actions taken thus far are limited. For example, only CBP and the United States Secret
Service conducted an inventory of their IPv6-capable devices. CBP obtained contract
support to develop its own transition planning documents. However, none of the components
have developed an impact analysis to evaluate the potential risks on their network
infrastructures during transition.

According to DHS program officials, the department is only in the early stage of IPv6
transition and oversight responsibilities have not been established. Further, program officials
indicated that there is little incentive for the department to move forward with only a few
applications taking advantage of IPv6 features. Unless DHS involves its components in the
department’s transition effort, DHS’ migration to IPv6 may not be successful. Components
that migrate to IPv6 without specific guidelines may not align with DHS’ IPv6 goals.




              DHS Must Address Internet Protocol Version 6 Challenges

                                             4
Better Coordination With the OneNet Steward Is Needed

DHS has not coordinated effectively with its OneNet steward (CBP) to ensure that the
department’s IPv6 transition is planned methodically. The lack of coordination has caused
confusion and duplicated planning efforts between DHS and CBP on several key decisions
that affect the department’s transition to IPv6. DHS program officials indicated that they
selected “dual-stack” as the department’s transition method to IPv6. According to CBP
personnel, the transition method could not be determined until testing was conducted.
Testing is needed to evaluate whether the method selected would compromise security and
be compatible with DHS OneNet. Finally, CBP personnel indicated that IPv6 program
officials had yet to share the most current version of the transition plan and impact analysis
with them.

Improved coordination between DHS’ IPv6 program office and CBP officials will allow
DHS to better manage its resources and avoid duplicating planning efforts. Effective
coordination with DHS’ OneNet steward on key transition planning decisions will help
ensure that network security is not compromised during the transition.

Unless DHS officials quickly address the challenges affecting its IPv6 transition, the
department risks not meeting OMB’s June 30, 2008 milestone. Despite assurances from
DHS officials that the department will meet OMB’s deadline to transmit both IPv4 and IPv6
traffic by June 2008, we believe that the actions DHS has taken to date do not guarantee that
the department and its components can successfully demonstrate the capabilities required by
OMB. As recently as December 2007, the OMB Deputy General Counsel said that agencies
are expected to meet the June 2008 deadline and that no extension is anticipated. The intent
of OMB M-05-22 is to ensure that the federal government is in a position to take advantage
of the enhanced capabilities of IPv6 as IPv6-capable products and services become available.

Recommendations

To strengthen DHS’ IPv6 planning effort, we recommend the CIO:

       1. Complete a comprehensive IPv6 inventory of all existing routers, switches,
          hardware firewalls, applications, and other technologies department wide.

       2. Finalize the transition plan with detailed interim milestones and a timeline for the
          department to complete its transition to IPv6.

       3. Determine which transition mechanism will be employed by DHS and verify this
          new capability through testing activities.

       4. Develops and issue necessary guidance for components to plan and align their
          transition effort to IPv6 with the department’s goals and implement a process to
          monitor components’ transition activities.

             DHS Must Address Internet Protocol Version 6 Challenges

                                             5
       5. Ensure that the DHS IPv6 program office and CBP coordinate their planning and
          transition efforts.

Management Comments And OIG Analysis

DHS concurs with recommendation 1. DHS agrees that a complete inventory of IP devices
and applications needs to be generated and an assessment needs to be made regarding the
readiness state of IPv6 capabilities. A strategy to complete a comprehensive IPv6 inventory
(edge router to desktop) is under development for June 2008. Also, DHS will determine
what devices and applications can be upgraded for IPv6 capabilities, and identify what needs
to be replaced.

We accept DHS’ response to complete a comprehensive inventory and to determine its state
of IPv6 readiness.

DHS concurs with recommendation 2. DHS will finalize a transition plan by September
2008. The updated transition plan will be based on a CBP transition plan that will be
coordinated among technical and application transition work groups, and will include major
milestones. An integrated IPv6 transition schedule will still be needed and will be developed
in coordination with component IPv6 transition plans to provide insights into the
dependencies and the availability of required technical solutions. The integrated transition
schedule is to be completed no later than March 2009.

We accept DHS’ response to finalize its transition plan. We maintain that DHS needs to
outline its interim milestones and a timeline for the department to complete its transition to
IPv6.

DHS concurs with recommendation 3. In March 2008, the IPv6 program office created a
high-level DHS IPv6 Master Test Plan that identifies the operational criteria that need to be
verified through a test and evaluation program. The criteria are intended to ensure that the
selected transition mechanism will not impact operations. The criteria will be applied to
IPv4 and IPv6 network transition techniques, such as dual stack and configured tunnels.
Proposals to use transition mechanisms during the transition period will be evaluated on a
case-by-case basis.

We accept DHS’ response to identify, test, and evaluate IPv4 and IPv6 transition techniques
to determine which mechanism will be employed by DHS.

DHS concurs with recommendation 4. DHS will finalize and distribute IPv6 implementation
guidance to enable the network steward and components to follow a common and
coordinated approach. The set of guidance documentation is targeted for completion in
October 2008. These deliverables will support component planning efforts and the
development of the integrated transition schedule that is to be competed by March 2009.




              DHS Must Address Internet Protocol Version 6 Challenges

                                             6
We accept DHS’ response to distribute IPv6 guidance to the components to plan and align
their transition efforts with the department’s goals and implement a process to monitor
components’ transition activities.

DHS concurs with recommendation 5. Efforts are underway to create a common
understanding of the department’s IPv6 implementation plans. The department is
establishing technical and application transition work groups (to include the network steward
and component representatives) to foster the planning and transition efforts. A technical
workgroup will initiate in July 2008 and an application work group will initiate in October
2008.

We accept DHS’ response to ensure that the DHS IPv6 program office and CBP coordinate
their planning and transition efforts.

*********************

We conducted our audit from September to November 2007 under the authority of the
Inspector General Act of 1978, as amended, and according to generally accepted government
audit standards.




             DHS Must Address Internet Protocol Version 6 Challenges

                                            7
Appendix A
Management Comments to the Draft Report




           DHS Must Address Internet Protocol Version 6 Challenges

                                     8
Appendix A
Management Comments to the Draft Report




          DHS Must Address Internet Protocol Version 6 Challenges

                                    9
Appendix A
Management Comments to the Draft Report




          DHS Must Address Internet Protocol Version 6 Challenges

                                    10
Appendix B
Major Contributors to this Report




       Edward G. Coleman, Director
       Patrick Nadon, Audit Manager
       Chiu-Tong Tsang, Audit Team Leader
       Charles Twitty, Auditor
       Nazia Khan, IT Specialist
       Domingo Alvarez, Referencer




              DHS Must Address Internet Protocol Version 6 Challenges

                                        11
Appendix C
Report Distribution



       Department of Homeland Security

       Secretary
       Deputy Secretary
       Chief of Staff
       Deputy Chief of Staff
       General Counsel
       Executive Secretariat
       GAO/OIG Liaison Office
       Assistant Secretary for Policy
       Assistant Secretary for Legislative Affairs
       Assistant Secretary for Public Affairs
       Deputy Under Secretary for Management
       Acting Chief Information Officer
       Information Systems Security Manager
       Executive Director, Information Technology Services Office
       Compliance and Oversight Program Director
       Chief Information Officer Audit Liaison
       CBP Chief Information Officer
       CBP Information Systems Security Manager
       CBP Audit Liaison

       Office of Management and Budget

       Chief, Homeland Security Branch
       DHS Program Examiner

       Congress

       Congressional Oversight and Appropriations Committees, as appropriate




              DHS Must Address Internet Protocol Version 6 Challenges

                                           12
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
